                            Closeout for M01020006

   In February 2001, a reviewer' of a n N S F proposal2 alleged the PI3 and/or co-
PI4 (the subjects) plagiarized material from a source paper5 that was not
correctly cited.6
    Although the reference in the subjects' proposal cited the journal that
published the source paper incorrectly, everything else-the page number, the
authors (including ordering), title, and year-was correct. Given all the correct
information, and that the journal cited was very similar to the journal in which
the paper was published, we concluded that it is more likely the incorrect
listing was a n error by the subjects rather than an attempt to misdirect any
reviewers.
   The allegedly copied material consisted of approximately four sentences and
one figure (the figure is a schematic), mostly in the introductory section of the
proposal. While it is true that the material in the introductory section was not
cited to the source paper, the subject provided a citation in a later part of the
proposal that was related to the research discussed in the source paper.
Technically, the figure itself was not referenced, but the subjects cited the
source paper in the sentences before and after the sentence that mentioned the
schematic figure. The subjects also cited the source paper by its first author's
name twice in this paragraph. The subjects specifically differentiated their
proposed research from the research described in the source paper. Therefore,
we concluded that the subjects' apparent use of the source paper material
represented an ethical breach, but did not rise to the level of misconduct. We
believe that this ethical breach warrants a cautionary letter to the subjects.
   This inquiry is closed and no further action will be taken on this case.

cc: Investigation, IG




   1 [footnote redacted].
     [footnote redacted].
     [footnote redacted].
   4 [footnote redacted].
   5 [footnote redacted].
   6 [footnote redacted].



                                    Page 1 of 1
